No. 20-1114

 

In THE
Supreme Court of the United States

AMERICAN HOSPITAL ASSOCIATION, e¢ al.,

Petitioners,
v.

XAVIER BECERRA, in his official capacity as the
Secretary of Health and Human Services, et al.,

Respondents.

On Writ of Certiorari to the
United States Court of Appeals for the
District of Columbia Circuit

BRIEF OF AMICI CURIAE
YALE NEW HAVEN HEALTH SYSTEM,
BJC HEALTH CARE, CEDARS-SINAI
MEDICAL CENTER, GEISINGER,
UPMC, AND VANDERBILT
UNIVERSITY MEDICAL CENTER
IN SUPPORT OF PETITIONERS

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
6,077 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 10, 2021.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
